2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ET AL.,
Petitioners,
V.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF UNITED STATES SENATOR TED CRUZ AND 24
OTHER U.S. SENATORS AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery ~ithin 3 calendar days. Packages were
plainly addressed to the following:
SEE ATTACHED
To be filed for:
GENE C. SCHAERR
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
RlDDHI DASGUPTA
SCHAERR I JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Amici Curiae

Subscribed and sworn to before me this 20th day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

HERAL NOTARY-State of Nebr«Jka
RENEE J. GOSS

My Comer,. Exp. September 5, 2023

Affiant

41 166

Attorneys for Petitioners
Paul D. Clement
Counsel of Record

Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004

202-389-5000

paul.clement@kirkland.com
Party name: New York State Rifle & Pistol Association, Inc., et al.
Attorneys for Respondents
Barbara Dale Underwood
Counsel of Record

Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov

Party name: Kevin P. Bruen, et al.

212-416-8016

